PROOF OF SERVICE/ NOTICE OF FILING
TO:

Illinois Supreme Court by filing into case 126714

Board of Elections Chicago Office

Exc Director Steve Sandvoss
ssandvoss@elections.il.gov
served by email

100 W. Randolph, Suite 14-100
Chicago, IL 60601
312-814-6440
Fax: 312-814-5228
TO: Office of the Governor
James R. Thompson Center
100 W. Randolph, 16-100
Chicago, IL 60601
Phone: 312-814-2121
FAX 312-814-6485 to notice/mailed by request USPS
TO: Karen Yarbough Cook County Clerk clerk.yarbrough@cookcountyil.gov
69 W Washington Suite 500
Chicago IL 60602
FAX (312) 603-9786
You named Respondents are hereby notified that on April 18, 2021 by
electronic service (ECF) into case submitted for filing

RESPONDENTS WERE SERVED UNDER THE REQUIRMENTS OF THE US
SUPREME COURT RULES
Under penalties as provided by law of the United States Supreme Court
pursuant Section 1-109 of the Code of Civil Procedure, the undersigned
certifies that the statements set forth in this instrument are true and correct.
On April 18, 2021 the foregoing Certificate of Service with attached NOTICE
which complies with the proposed order requirement of Supreme Court Rule
361(b)(2), was electronically filed with the Clerk, Illinois Supreme Court, and by
rule depositing in the US mail with proper postage prepaid at the Post Office
drop box Peoria, IL 61614 and serves as certified notice all Respondents were
served as required.
Dated this 18th day of April, 2021
"/s/" Jody D Kimbrell
6608 N University St Peoria, IL 61614
(309) 678-3857
jody513@comcast.net

RECEIVED
APR 2 7 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

No. 20-1035

3in tf)e Supreme €outt af tlje Wlniteb
States*
RE: JODY D. KIMBRELL, Petitioner
NOTICE
NOTICE IS HEREBY GIVEN that a Petition for
Rehearing for writ of mandamus in the above entitled case
was filed in the United States Supreme Court of the United
States on April 18, 2021
Beginning November 13, 2017, parties represented
by counsel must submit filings through the Supreme
Court's electronic filing system. Paper remains the official
form of filing and electronic filing is in addition to the
existing paper submission requirement.
Attorneys must register for the system in advance
and registration process may take several days. Further
information about the system can be found at
https: / / www. suprementcourt. gov / filingand
rules / electronicfiling.aspx
Dated this 18th day of April, 2021
"/s/" Jody D Kimbrell
6608 N University St
Peoria, 1L 61614
309 678-3857
jody513@comcast.net

No. 20-1035

In tfte Supreme €ourt of tfje Winiteb
£>tate&

RE: JODY D. KIMBRELL, Petitioner

NOW COMES petitioner Jody D Kimbrell who hereby
certifies that service upon all Respondents has been fulfilled and
attaches same hereto.
April 18, 2021
Respectfully submitted,
"/s/" Jody D Kimbrell

Jody D Kimbrell, Petitioner
6608 N University St Peoria, IL 61614
(309) 678-3857
jody513@comcast.net

1

VERIFICATION BY CERTIFICATION
Under penalties as provided by law pursuant to Section 1109 of the Code of Civil Procedure, the undersigned certifies that
the statements set forth in this instrument are true and correct,
except as to matters therein stated to be on information and belief
and as to such matters the undersigned certifies as aforesaid that
she verily believes the same to be true.

"/s/11 Jodv D Kimbrell

2

No. 20-1035

In tfje Supreme €ouvt of tfje fflmteb
States

RE: JODY D. KIMBRELL, Petitioner

PROOF OF SERVICE/ NOTICE OF FILING

Under penalties pursuant Section 1-109 of the Code
of Civil Procedure, the undersigned certifies that the
statements set forth in this instrument are true and correct.
On April 18, 2021 the foregoing Certificate of Service with
attached NOTICE was served upon the above named
Respondents by ECF case 126714 Illinois Supreme Court
and by USPS to their addresses of record.
This certificate serves as verification all Respondents were
served as required.
"/s/" Jody D Kimbrell
Dated this 18th day of April, 2021
6608 N University St Peoria, IL 61614
(309) 678-3857
jody513@comcast.net

4

NO.126714
IN THE
SUPREME COURT OF ILLINOIS
JODY D. KIMBRELL,
Illinois Citizen, Certified Election Poll Book Judge
Petitioner
VS

ILLINOIS STATE BOARD OF ELECTIONS
CHICAGO; JAY ROBERT "JB" PRITZKER,
GOVERNOR ILLINOIS and Member of the
Illinois Bar/Chicago Bar;
KAREN A. YARBROUGH, COOK COUNTY CLERK
Respondents

)
)
)

)
)
)
)
)

Petition for
Rehearing of
Original Petition
for Writ of
Mandamus

)
)
)
)
)

NOTICE OF UNITED STATES SUPREME COURT CASE 20-1035
ALL RESPONDENTS WERE SERVED UNDER THE REQUIRMENTS
OF THE ILLINOIS SUPREME COURT RULES

Jody D Kimbrell
6608 N University St
Peoria, IL 61614
309 678-3957
jody513@comcast.net

NOW COMES petitioner Jody D Kimbrell hereby certifies that service
upon all Respondents has been fulfilled and attaches hereto.
April 18, 2021
Respectfully submitted,
Vs/" Jodv D Kimbrell
Jody D Kimbrell, Petitioner
6608 N University St Peoria, IL 61614
(309) 678-3857
jody513@comcast.net

VERIFICATION BY CERTIFICATION
Under penalties as provided by law pursuant to Section 1-109 of the
Code of Civil Procedure, the undersigned certifies that the statements set forth
in this instrument are true and correct, except as to matters therein stated to
be on information and belief and as to such matters the undersigned certifies
as aforesaid that she verily believes the same to be true.

Vs/" Jodv D Kimbrell

2

